                   CLOSEOUT MEMORANDUM FOR MOO040020
    In April 2000, an NSF program officer' received a letter from the complainant: a former
    visiting foreign research scientist. The letter contained six allegations of misconduct in
    science3 against the subject: the PI on the NSF award5 and, indirectly, against one of the
    subject's graduate studentse6 The complainant received partial support from a funded
    proposal from her country7 as well as from the NSF award in support of her travel to
    collaborate with the subject. When we learned that the subject's universitys received the
    same letter from the complainant and opened an inquiry, we deferred our inquiry to the
    University.

    The University's Inquiry Committee (the Committee) concluded that no "scholarly
I
    misconduct" occurred. As part of our evaluation of the University's report, we conducted
    our own inquiry.
I
    Allegation 1. The subject inappropriately included himself as a co-author on papers and
    symposia presentations with the complainant.

    The complainant listed several paperslpresentations that she co-authored9 with the
    subject. The subject provided the Committee with examples of manuscripts for some of
    these papers that he had annotated with suggestions and corrections. In addition, the
I   Committee stated that letters to and from journals provided "substantial evidence that [the
    complainant] was the one who had corresponded with the journals involved." The
    Committee concluded that the subject had made significant contributions to the
    paperslpresentations on which he was a co-author.




                                          Page 1 of 4                                M 00-20
              CLOSEOUT MEMORANDUM FOR ~ 0 0 0 4 0 0 2 0

 Our review verified that almost all of the changes suggested by the subject in his
 annotated manuscripts appeared in the final published versions of the papers. Also,
 copies of numerous e-mails from the complainant to the subject depicted a productive
 collaborative relationship between the two scientists, including exchanges of information
 (copies of papers, internet search results, etc.) and discussions about how to address
 editors' comments on co-authored submissions. We concluded that there was no
 substance to the allegation that the subject inappropriately included himself as a co-
 author.

 Allegation 2 .   The subject inappropriately used the complainant's unpublished
 numerical and graphical results in his graduate student's Master's thesis.

The complainant said she assisted the subject and the graduate student with the thesis
research. She said she showed them how to use her computer program, but did not give
either of them permission to use the program for anything other than to determine
parameters for their experiments.

The Committee determined that neither the subject nor the graduate student used any
material inappropriately. The complainant's program was already limited to generating
information about various parameters and any related work was approved by the
complainant. The Committee also determined that the reference provided in the thesis to
the complainant's paper was an appropriate acknowledgment.

We concur with the Committee's conclusion that the citation of the complainant's paper
in the thesis was adequate. There is no substance to the allegation that the subject (or
his graduate student) inappropriately used the complainant's unpublished work in the
Master's thesis.

Allegation 3. The subject and his graduate student used the complainant's computer
programs inappropriately.

The complainant said she published one computer program.'0 Although the complainant
claims the subject put intense pressure on her to give him the text of her other computer
programs, she said she did not give them to him. The Committee stated that the written
evidence did not support the allegation, which indicated that the complainant had
previously published the computer program and that the subject did not publish anything
of the complainant's without proper acknowledgement.

We accept the Committee's evaluation and conclude that there is no substance to the
allegation that the subject or his graduate student inappropriately used the complainant's
computer programs.

Allegation 4. The subject applied for a patent for one of the complainant's inventions.




                                      Page 2 of 4                               M 00-20
               CLOSEOUT MEMORANDUM FOR MOO040020

 The Committee learned from its University's patent attorney that the University made no
 applications for a patent an invention by the complainant and, as far as he knew, the
 subject made no independent applications. Our search of the U.S. Patent and Trademark
 Office online patent application database1' found no patent applications in the subject's
 name. There is no substance to the allegation that the subject had applied for a patent for
 one of the complainant's inventions.

 Alle~ation5. The subject did not participate significantly in the preparation of the NSF
 award.

According to the complainant, the subject used her proposal and her paper12to write the
NSF award. She did not provide a copy of her proposal to the Committee. She
acknowledged that the subject wrote some parts of the award, and, in one statement, said
that the subject commented on her proposal as well. However, she said that the ideas in
the award were mostly hers.

The Committee reviewed drafted portions of the award provided by the subject. It also
noted that the complainant submitted a letter as part of the NSF award stating her
willingness to collaborate with the subject. The Cdrnmittee concluded that the subject
"did participate significantly in the preparation of the NSF" award.

 There is clear evidence that, at the time the NSF award and the complainant's funded
 proposal were prepared, the subject and complainant had a collaborative relationship.
 This collaboration ended abruptly sometime after the complainant returned to her own
 country. The goal of the initial phase of the collaboration was to get funding to support
 their travel and living situations in each other's countries. As part of the initial phase, the
 complainant provided the subject with a copy of the manuscript she submitted 4 months
 later for publication, and the subject, in turn, copied about 5 pages of text, equations, and
 figures from the manuscript into the NSF award. None of the copied material was
referenced or distinguished in any way in the award. However, given the collaborative
relationship that existed at the time the NSF award was prepared, and given its purpose, it
is not unreasonable to expect that the subject would have considered it appropriate to use
the materials provided by the complainant. Even though the collaboration failed at a later
time, the acts by the subject, judged by the expectations of the collaborative relationship
that existed at the time, support the conclusion that the subject did nothing wrong. Only
the subject was qualified to submit the NSF proposal (the complainant is not a U.S.
resident), which he did, and the funds in the award were for participant support and
travel. There is no substance to the allegation that the subject did not participate
significantly in the preparation of the NSF award. Further, his use of the complainant's
materials was appropriate given the relationship that existed when the award was
prepared.




                                         Page 3 of 4                                 M 00-20
 a
          h                 CLOSEOUT MEMORANDUM FOR MOO040020
     .c
?:
              Allegation 6: The subject and his graduate student published experimental results in the
              thesis that were false.

              The complainant said that the subject and the graduate student did not use her computer
              program correctly, which resulted in false data in the graduate student's thesis. The
              subject explained that there was nothing false in the results, but instead the data contained
              errors he failed to catch. The Committee determined that the student was sloppy and the
              subject did a poor job of editing the thesis. It concluded this was a clerical error, not
              misconduct in science.

              At our request, the University provided more detailed information, including the figures
              involved and the specific errors on each. We concur with the Committee's conclusion.
              Honest error is not misconduct in science.

              This inquiry is closed and no further action will be taken.

              cc: Investigations, IG




                                                     Page 4 of 4
